NO. 19-1054
IN THE

Supreme Court of the United States
CHRISTA PIKE,
Petitioner,
V.

GLORIA GROSS, WARDEN,
Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g)(iii), the Reply Brief for the
Petitioner contains 2,992 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
Dated: May 18, 2020

Respectfully submitted,

Arn Jacobsen

